                             Office of Inspector General
                                                                                        December 2012
Business Loans
Kentucky Man Business Owner In-          Three Sentenced on Conspiracy           Two Missouri Men Charged
dicted on Theft Charges                  Charges in Maryland                     On December 7, 2012, a Missouri
On December 4, 2012, a Kentucky          In December, 2012, three individu-      businessman, and former mayor,
man was indicted on three counts of      als were each sentenced to one          was charged via criminal Infor-
theft and one count of false state-      count of conspiracy to commit bank      mation, and pled guilty to one
ments on loan applications. In Janu-     fraud. The first person was sen-        count of making false statements
ary of 2007, the SBA was tasked          tenced to 36 months in prison and       for the purpose of influencing the
with liquidating a portfolio of small    3 years supervised release. He also     SBA and aiding and abetting. Pur-
business concerns pursuant to the        agreed to a criminal forfeiture         suant to a plea agreement, he pled
Small Business Investment Company        amount of $13,432,000. A woman          guilty to the Information on the
Program (SBIC). The SBA appointed        was sentenced to one year and one       same date. The man obtained a
a firm to liquidate the portfolio.       month in prison, 5 years supervised     $150,000 SBA loan from a bank.
From 2008 to 2010, the owner of          release,    and    restitution    of    The investigation disclosed that he
the firm diverted the proceeds of        $216,472.92. She agreed to a crimi-     signed documents stating he was
sales, more than $59,000, from the       nal     forfeiture   amount       of    the president of his business and
small business concerns into a           $15,725,000. The third person was       that the loan proceeds would be
fraudulently opened bank account         sentenced to 36 months in prison,       used for “working capital,” when,
that he used to convert those pro-       5 years supervised release, and res-    in fact, he did not own, operate, or
ceeds for his personal use.              titution of $1,888,279.60.       He     manage the business. The loan
                                         agreed to a criminal forfeiture         proceeds were instead used to
Arizona Man Pleads Guilty                amount of $18,764,900.                  benefit other individuals and busi-
                                                                                 ness entities. The man is one of 18
                                         The scheme involved recruiting pro-
On December 6, 2012, an Arizona                                                  individuals charged in a complex
                                         spective borrowers to apply for
man pled to a one-count Infor-                                                   conspiracy to defraud the bank
                                         business loans through SBA’s 7(a)
mation charging conspiracy to com-                                               and the SBA.
                                         program. Under this program, the
mit bank fraud. The investigation
                                         principals of the small businesses      On December 12, 2012, a Missouri
revealed that the man falsely ob-
                                         seeking the loans are required to       business owner was also charged
tained two mortgage loans and an
                                         invest a certain amount of their        via a superseding Information, and
SBA loan by using his father’s identi-
                                         own money, called an equity injec-      pled guilty to one count of aiding
ty. In order to get the loans ap-
                                         tion, before they qualify for a loan.   and abetting the misapplication of
proved, he falsely represented that
                                         The investigation revealed that the     bank funds. The investigation re-
his father owned various properties
                                         three individuals altered bank state-   vealed that he conspired with a
and businesses, had large amounts
                                         ments, cashiers’ checks, and IRS        former bank official and others by
of cash on hand, and earned an an-
                                         documents to make it appear that        allowing his own bank account to
nual salary of $110,000. Lastly, he
                                         the prospective borrowers had           be used to launder money, in re-
submitted altered bank statements
                                         more money for their equity injec-      turn for $2,000. This is a joint in-
and false rental agreements in con-
                                         tions than they actually did. Losses    vestigation with the FBI.
junction with the loan applications.
                                         resulting from the scheme are esti-
The total loss relating to the SBA
                                         mated to be over $52 million. This
loan is over $2,402,099. This is a
                                         is a joint investigation with the FBI
joint investigation with the Federal
                                         and the U.S. Postal Inspection Ser-
Bureau of Investigation (FBI).
                                         vice.
                                                                                                          Page 2

                  California Woman               with its principal place of      businessman conspired to
                  Charged                        business in a designated         unlawfully transmit or cause
                                                 HUBZone.       However, the      to be transmitted approxi-
                  On December 13, 2012, the
                                                 investigation revealed that      mately $611,904. Of that
                  president of a California
                                                 business office identified on    amount, his company re-
                  business was indicted on
                                                 the application was nothing      tained $83,404 and paid
                  one count of bank fraud.
                                                 more than vacant office          approximately $528,500 to
                  The woman allegedly sub-
                                                 space with no employees.         his brother, an official with
                  mitted a loan application
                                                 In fact, the business operat-    the Army Corps of Engi-
                  that failed to disclose per-
                                                 ed out of the second busi-       neers. This is a joint investi-
                  sonal and corporate debts in
                                                 ness’s headquarters, which       gation with the FBI; the In-
                  order to obtain an SBA-
                                                 was not located in a HUB-        ternal Revenue Service,
                  guaranteed Recovery Act
                                                 Zone area. Neither owner         Criminal Investigations (IRS-
                  loan in the amount of
                                                 disclosed to the SBA that        CI); the U.S. Army Criminal
                  $1,750,000.     corporation
                                                 the first business did not       Investigation Division (Army
                  pled guilty to one count of
                                                 operate as an independent        CID); and the DCIS.
                  conspiracy to commit wire
                                                 company,       but     instead
                  fraud.
                                                 shared facilities, equipment,
                  Government                     personnel, insurance, and
                                                 bonding with the second
                  Contracting                    firm. This is a joint investi-
      DC Man                                     gation with the Defense
                  Kentucky Firms and             Criminal Investigative Ser-
sentenced and     Owners Agree to Pay            vice (DCIS).
                  $6,250,000
ordered to pay
                  On December 5, 2012, two       Washington, DC Business
$611,904 as a                                    Owner Sentenced
                  Kentucky firms and their
      result of   owners agreed to pay           On December 6, 2012, a
                  $6,250,000 to resolve alle-    Washington, D.C. business
       bribery    gations that they submitted    owner was sentenced to
                  false statements to the SBA    24 months of incarceration;
      scheme.
                  and false claims to the U.S.   36 months of supervised
                  Army (Army). The settle-       release; $611,904 in restitu-
                  ment resolves allegations      tion, to be paid jointly and
                  that the companies and         severally with two other
                  their owners made, or          defendants. He was also
                  caused to be made, false       ordered to pay a $100 spe-
                  statements to the SBA to       cial assessment fee. The
                  obtain certification as a      investigation disclosed that
                  HUBZone company.         The   he conducted financial
                  firms and their owners then    transactions in an effort to
                  used this certification to     conceal bribe payments
                  wrongfully obtain Army con-    from law enforcement and
                  tracts to build a courthouse   tax authorities. The bribe
                  in Fort Knox, Kentucky, and    payments were made to
                  to complete maintenance        U.S. Army Corps of Engi-
                  and other repairs to Army      neers officials in return for
                  facilities in Fort Knox. One   preferential treatment on
                  firm submitted an applica-     8(a) contracts. The investi-
                  tion to the SBA representing   gation revealed that the
                  itself as a small business
                                                                                                                     Page 3

                                Audit Report 13-08
Office of Inspector General     On December 3, 2012, the OIG issued Audit Report 13-08, The SBA Mismanaged Certain
    Peggy E. Gustafson,         8(a) Information Technology Contracts. This is the final in a series of three OIG audit
     Inspector General
                                reports related to information technology (IT) hardware and software contracts awarded
                                by the Small Business Administration (SBA) to Isika Technologies, Inc. (iTechnologies).
                                The objective of this audit was to determine whether the SBA effectively managed IT con-
     If you are aware of
                                tracts awarded to iTechnologies. Specifically, the OIG determined whether the prime con-
suspected waste, fraud, or      tractor and its subcontractor performed contract requirements in accordance with 8(a)
abuse in any SBA program,       program policies, guidance, and statutory requirements. The OIG also determined wheth-
 please report it online at     er the SBA’s contracting personnel administered IT contracts in accordance with federal
http://www.sba.gov/office       and SBA policies, guidance, and statutory requirements. The OIG found that the SBA did
-of-inspector-general/2662      not adequately manage IT hardware and software contracts awarded to iTechnolo-
                                gies. Specifically, the OIG determined that:
Or call the OIG Hotline toll-
  free, at (800) 767-0385           Contractor misrepresentations and contracting personnel’s lack of due diligence
                                    caused the SBA to inappropriately award and administer 8(a) contracts to iTechnolo-
                                    gies.
    We welcome your
comments concerning this            Contracting personnel at the SBA did not properly administer the contracts, as they did
   update or other OIG              not conduct price reasonableness analyses for contracts it awarded to iTechnologies.
 publications. To obtain            Deficiencies within the SBA’s invoicing procedures established an environment ripe for
copies of these documents           improper payments.
   please contact us at:
                                As a result, the SBA overpaid for IT hardware and software by approximately
                                $343,854. Further, the SBA improperly paid 100 percent of iTechnologies’ invoices.
         SBA OIG                To address these findings the audit team made 15 specific recommendations.
   409 Third Street SW,
        7th Floor
  Washington, DC 20416
                                Audit Report 13-09
   E-mail: oig@sba.gov
Telephone: (202) 205-6586       On December 12, 2012, the OIG issued the Independent Public Accountant or IPA’s Man-
   FAX (202) 205-7382           agement Letter in Audit Report 13-09, Management Letter-SBA’s FY 2012 Financial State-
                                ment Audit. The IPA’s management letter includes information related to non-reportable
                                findings identified during the IPA’s audit of SBA’s FY 2012 financial statements.
                                Highlights
                                In this letter, the IPA noted 12 matters involving internal controls and other operational
                                matters that included: (1) inadequate review of SBA’s return on assets re-estimate cash
                                flow models; (2) improvement needed in the documentation of the obligations review pro-
                                cess; (3)inadequate controls over the 7(a) 1502 error process; (4) inadequate documenta-
  We’re on the Web!             tion of policies and procedures for the microloan program; (5) loan file documentation not
                                retained in loan files; (6) untimely processing of Microloan transactions and improper in-
       http://                  termediary lending pilot program disbursements; (7) untimely site visits for loan defaults;
                                (8) untimely processing of charge-off loans; (9) untimely post-purchase and charge-off re-
    www.sba.gov/ig              views; (10) inadequate and untimely follow-up on corrective actions; (11) improvement
                                needed in time and attendance authorization, review, and certification processes,
                                improvement needed in the employee separation process. The IPA made 25 recommenda-
                                tions to which agency officials or designees agreed to implement or have already taken
                                action to address the underlying conditions.
